HHS/OIG, Audit -"Review of West Virginia's Medicaid Drug Rebate Program,"(A-03-03-00207)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of West Virginia's Medicaid Drug Rebate Program," (A-03-03-00207)
October 15, 2003
Complete
Text of Report is available in PDF format (458 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether West Virginias Department of Health and Human Resources (DHHR)
had established adequate accountability and internal controls over the Medicaid drug rebate program.  Generally, DHHR
had established adequate accountability and internal controls.  However, we found that (1) outstanding rebates reported
to the Centers for Medicare and Medicaid Services did not agree with the accounting records; (2) DHHR had not resolved
disputes timely; (3) the rebate billing department and accounts receivable department maintained separate accounting records
of rebate transactions without reconciling their records to one another; and (4) DHHR used an outdated policies and procedures
manual for the Medicaid drug rebate program that was not approved by management.